CERTIFICATE OF SERVICE
NO. TBD
Kimbro Stephens Insurance Trust, and A.K. Tennessee Irrevocable Residuary Trust
Petitioners,
v.
James E. Smith, Jr.; Kimberly Woodyard; and Smith Akins & Gladden, P.A.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the KIMBRO
STEPHENS INSURANCE TRUST, AND A.K. TENNESSEE IRREVOCABLE RESIDUARY TRUST PETITION FOR
WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by Fedex 2-Day, prepaid
for delivery to the following address.
Martin A. Kasten
Friday, Eldredge & Clark, LLP
400 West Capitol Avenue, Suite 2000
Little Rock, AR 72201-3493
(501) 376-2011
mkasten@fridayfirm.com
Counsel for James E. Smith, Jr.; Kimberly
Woodyard; and Smith Akins & Gladden, P.A.

Lucas DeDeus

August 18, 2021
SCP Tracking: Carder, III-303 North Main Street-Cover White

